No. 20-5279

 

IN THE
Supreme Court of the United States

WILLIAM DALE WOODEN, PETITIONER,
v.

UNITED STATES OF AMERICA

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,925 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 3, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
